                      UNITED STATES DEPARTMENT OF EDUCATION
                                       OFFICE OF THE INSPECTOR GENERAL




January 12, 2005

INSPECTION MEMORANDUM

To:                  Philip Maestri
                     Director, Management Improvement Team

From:                Cathy H. Lewis
                     Assistant Inspector General
                     Evaluation, Inspection and Management Services

Subject:             Review of the Department’s Knowledge Management Initiatives and Best
                     Practices from Other Federal Agencies (ED/OIG I13E0022)

Executive Summary:

This memorandum provides the results of our inspection of the Department’s knowledge
management (KM) initiatives. Our objectives were two-fold: 1) to assess current efforts
within the Department to manage knowledge and information assets; and 2) to identify
low cost knowledge management activities at other Federal agencies that could assist the
Department in its human capital planning activities.

Mirroring a government-wide trend, approximately 33% of the Department’s employees
will be eligible for retirement in 2006, signaling the potential for significant loss of
information and knowledge about Department programs and operations. The President’s
Management Agenda recognized the importance of capturing the knowledge and skills of
retiring employees and it also acknowledged the importance of knowledge management
generally as “part of an effective strategy that will help generate, capture and disseminate
knowledge and information”1 within an organization.

In FY 2002, the Department’s Blueprint for Management Excellence recognized the
potential usefulness of knowledge management and recommended, as part of its human
capital initiatives, that the Department:

          “Form a team of employees to develop statements of work that use
          knowledge management to a) create an inventory of employee skills, b)
          document ‘how things work in ED,’ and c) record best educational
          practices.”


1
    PMA, page 13, http://www.whitehouse.gov/omb/budget/fy2002/mgmt.pdf

                                400 MARYLAND AVE., SW., WASHINGTON, DC 20202-1510
                                                   www.ed.gov

         Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
OIG/Evaluations and Inspections            Inspection Report                          ED/OIG I13E0022


This action item was closed in December 2002 because, according to the Executive
Management Team, the statements of work submitted did “not adequately capture what
needs to be done with regard to knowledge management.” A new action item was to be
created in FY 2003; however no new action item was developed. Knowledge
management can have many different aspects. For purposes of this inspection, we have
examined initiatives undertaken by the Department, or by principal offices within the
Department, with reference to the three objectives identified in the Blueprint action item.

In 1998, prior to the development of the MIT action item, the Department began
development of its ConnectED Intranet site, which provides access to Department
administrative policies, forms and directives. Although not specifically developed as
knowledge management tool, the site does address the second of the MIT action item
objectives: documenting “how things work.” In 2002, the Department developed the
“What Works Clearinghouse,” which shares information on the effectiveness of
educational programs, products, practices and policies and, as such, is responsive to the
third objective identified in the MIT action item. The Department has not, however,
created an inventory of employee skills or otherwise developed tools specifically
designed to help share knowledge or document “how things work” in the Department.2

One area in which knowledge management tools can be very useful is human capital
planning, particularly the support of Department or component level workforce and
succession plans.3 In September 2004, the Department released its recently developed
Human Capital Plan. The plan does not currently articulate a knowledge management
strategy for the Department or identify how specific KM tools could be used to support
workforce or succession planning.

Some of the Principal Offices within the Department have successfully implemented
other KM projects that address the MIT objectives. Although some of these efforts might
be of interest to several offices, information about these projects has not been widely
disseminated within the Department. In addition, we also have identified some low cost
knowledge management projects undertaken by other federal agencies, including NASA,
and the Department of Labor, that also might be used by the Department to help it
address one or more of its stated knowledge management objectives.

Recommendation:

Based upon our inspection, we recommend that:
    1. OM articulate a knowledge management strategy, tied to the Department’s
       human capital plan, particularly with reference to workforce and succession
       planning.
2
  The Department has developed three initiatives, the Employee Skills Inventory System, the GoLearn on
line training program and Individual Development Plans, that could be part of a component’s workforce or
succession plan; however, none of these initiatives address the Department’s stated KM objectives.
3
  The Office of Personnel Management, the Office of Management and Budget and GAO in their jointly
developed, “Human Capital Standards for Success” recognized the importance of knowledge management
to effective implementation of a human capital plan. Human Capital Standards for Success:
http://apps.opm.gov/HumanCapital/standards/index.cfm


                                                   2
OIG/Evaluations and Inspections          Inspection Report                       ED/OIG I13E0022


    2. The specific implementing action steps identified by OM include sharing and
       promoting the successful KM initiatives already underway within the Department
       and sharing information about initiatives underway in other Departments, as
       appropriate.


Objective 1: What KM initiatives currently exist in the Department?

The importance of knowledge management was recognized in the Department’s
Blueprint for Management Excellence. Although the specific action item identified as
part of that process was not completed, the Department has knowledge management tools
in place that at least partially address two of the three objectives identified. The
Department has not developed an inventory of employee skills nor has it articulated a
knowledge management strategy part of its human capital plan, or otherwise identified
specific KM tools that would support workforce or succession planning. Some offices in
the Department have undertaken their own knowledge management activities that address
the Blueprint for Management Excellent objectives and these should be more widely
shared across the Department.

In November 1998, prior to the development of the Blueprint, the Department developed
ConnectED, its intranet site. Although the development of the site predated the MIT
action item on knowledge management, the site does speak to one of the MIT objectives:
documenting how things work within ED. The site includes a useful and very accessible
repository of commonly used forms, administrative policies and administrative directives.
In 2002, the Department’s Institute of Education Sciences introduced the “What Works
Clearinghouse” (WWC). On an ongoing basis, the WWC gathers studies of the
effectiveness of educational interventions (programs, products, practices and policies). It
reviews the studies that have the strongest design and reports on the strengths and
weaknesses of those studies against the WWC Evidence Standards so that users know
what the best scientific evidence has to say. The WWC provides reports with a rating
system that gives the users a sense of how much they can rely on the research study
findings reviewed. This system responds to the third MIT objective: recording best
educational practices.

Specific knowledge management tools that would be helpful in the human capital area
include the skills inventory referenced in the MIT action item and other methods for
collecting and sharing institutional information, including internal organizational “best
practices,” e.g., best practices for monitoring grant recipients.4 Tools that make such
information accessible would benefit new hires and help components build capacity and
enhance their ability to achieve their business objectives. They would also help mitigate
the loss of staff that take other positions or retire. The Department’s human capital plan

4
 As part of its human capital planning work, GAO has identified several ways in which knowledge
management tools can be used; including supporting knowledge sharing, enhanced professional
development, and improving recruitment and retention. GAO Power Point Presentation on “Knowledge
Management,” April 12, 2004: http://www.gao.gov/cghome/km/tsld019.htm.



                                                 3
OIG/Evaluations and Inspections       Inspection Report                     ED/OIG I13E0022


does not yet articulate an overall strategy with respect to knowledge management nor
provide specific guidance or suggestions to the individual components about the ways in
which knowledge management tools such as these can help support their workforce or
succession planning efforts. Such information would be a very useful addition to the
human capital plan.

Some of the Department’s 19 Principal Offices have initiated knowledge management
activities that do increase their ability to share information and build capacity. Of the 19
offices we surveyed, nine indicated to us that currently they are supporting one or more
such activities. We interviewed staff in those nine offices about these projects. From
these interviews, it was apparent that only eleven of the seventeen projects identified had
actually been implemented. Four projects that have been implemented or are ready to
implement are discussed in detail below. All of these projects were developed and three
have been implemented with little or no capital investment by the component. A chart
showing all of the KM projects that have been implemented or are under development is
attached at Appendix A.

Office of Civil Rights (OCR)
Communities of Practice/Issue Networks OCR receives over 5,000 complaints a year
and monitors about 1,000 cases at a time. OCR has 12 regional offices, all of which
conduct investigations. With this dispersed workforce and the volume of work to be
completed, coordination between the offices and headquarters and consistency in the
application of legal standards and the development of resolution agreements are an
ongoing concern. To help address these issues, OCR created several “Issue Networks.”
These networks were established around key program areas and each group includes staff
from each regional location and headquarters. According to OCR, the networks have
facilitated communication and coordination across the organization and have helped build
staff capacity around each issue area.

Office of Postsecondary Education (OPE)
Tracking System and Policy Database (awaiting full implementation)
Forty percent of the OPE workforce is eligible to retire in the next five years. To address
these pending departures, OPE has initiated efforts to put the history of the various OPE
programs and the guidance previously provided over the years in a searchable and easily
accessible system. Most of what is available now is in paper form and only certain
individuals know where some documents are retained.

OPE’s goal is to make the database searchable and available on the Intranet, so that it will
be accessible to all Department offices. According to OPE, when operational, the system
will reduce research time, improve consistency in the Department’s dissemination of
information and strengthen the integrity of the Title IV programs by creating a permanent
record of the historical guidance it has given.

Principal Office Intranets
Twelve of the 19 principal offices in the Department have active Intranet sites. While
such sites are used for many purposes, several of them include information about “how



                                             4
OIG/Evaluations and Inspections       Inspection Report                     ED/OIG I13E0022


things work” and include other vehicles for information sharing and capacity building
within the organization. For example, some sites include discussion boards for
exchanging quick answers and solutions to problems. Of these sites, there is a wide
range of what tools and information are available and utilized. (See Appendix B for a
chart summarizing the current Intranets in use and the tools they have available for
employees.)

National Center for Education Statistics (NCES)
NCES Members’ Site
NCES is mandated by Congress to collect, analyze and report complete statistics on the
condition of American education as well as international education activities. To better
share information with its employees and some contractors, NCES developed a members
Internet site. The site was developed by the NCES Webmaster and a contractor and
operates, according to NCES at a negligible cost. The site facilitates information sharing
by allowing members to make requests to the Webmaster for updates, information, or
changes on the NCES public Internet site (all saved electronically) and document sharing
of published and internal documents

Objective 2: Reviews of exemplary activities from other federal agencies

We interviewed three different agencies—NASA, Labor and State—about the KM
initiatives at their respective agencies. We selected these agencies because they appear to
be in the forefront of the Federal government’s implementation of KM. Below is a
summary of some of some projects undertaken by these Departments that were developed
and implemented with limited financial investment and that might be useful as part of a
workforce or succession plan.

National Aeronautics and Space Administration (NASA)
NASA has been practicing KM on a Department level for nearly five years and has a
wide range of programs. The agency identified two projects that required little to no
financial investment—“storytelling” and a partnership with human resources.

        Sharing Best Practices through Storytelling
        NASA has eleven major centers across the United States. While there are various
        projects in different areas within the organization, some of the same problems and
        issues arise from one project to the next. In order to avoid resolving the same
        problem each time it arises, NASA decided to implement what it described as
        “storytelling,” a process that entails periodically pulling together project managers
        to share best practices from different projects.

        Partnership with Human Resources
        NASA wanted to reward people for participating in knowledge sharing projects,
        but wanted to use the system that was already in place. NASA decided that
        instead of adding new awards to reward people for participating in KM initiatives,
        they would partner with human resources to change the criteria for certain awards
        to emphasize those traits they wanted people to perform—such as mentoring,



                                             5
OIG/Evaluations and Inspections        Inspection Report                      ED/OIG I13E0022


        sharing ideas, etc. The benefit of this partnership was that it allowed the entire
        organization to come into alignment on the importance of knowledge sharing
        while working within the current system and current budget.

U.S. Department of Labor (Labor)
Workforce Connections, www.workforceconnections.dol.gov
About three years ago, Labor began a 21st Century Initiative. One of the main goals of
this initiative was to simplify the way people create, distribute and manage knowledge
sharing throughout their respective organizations. This led to the development of
Workforce Connections, a set of free web-based tools that can easily be used to build
and maintain: 1) communities of practice websites, 2) traditional websites, 3) on-line
courses or presentations, 4) knowledge repositories, and 5) online coaching.

Since content and presentation are separately built within these tools, creating separate
versions (i.e., supervisor training that is slightly different from non-supervisor training) is
faster and cheaper. In addition, if content in these different versions changes, presumably
one update is sufficient to change all versions. Below are some examples of how
Workforce Connections has been implemented in other Federal agencies to help
manage both external and internal knowledge:

        Smithsonian National Zoo
        Across the country, zoo veterinarians were encountering unique injuries and
        illnesses within their animal populations. While cases existed nationwide, there
        was no central repository of information that a veterinarian could turn to when
        treating these exotic animals. The Smithsonian National Zoo decided to create a
        Community of Practice Portal, ZooVet, for knowledge exchange about exotic
        animals. This site currently houses case histories, pictures and x-rays that
        document animal cases. This website allows very specialized knowledge and
        experience to be shared among a vast group of people in order to provide timely,
        effective and proper care to the nation’s zoo animals.

        Occupational Safety and Health Administration (OSHA)
        OSHA wanted to create a six to eight hour online training on workplace violence.
        The training needed to be 508 compliant and Sharable Content Object Reference
        Model (SCORM) conforming. The estimated contractor time and cost was
        approximately $250,000 and ten months to develop. Through Workforce
        Connections they were up and running in two and a half months, with no yearly
        maintenance cost, and saved between $25,000 and $35,000 per hour of training,
        due to the simplicity of the software and the fact that it was readily available.

U.S. State Department (State)

In July 2001, the State Department developed a knowledge management tool called Ask
Admin. The Center mined a pre-existing listserv and came up with a list of frequently
asked administrative questions and then brought in subject matter experts to answer them.
Any State Department employee with access to the Department’s internal Intranet can use


                                              6
OIG/Evaluations and Inspections       Inspection Report                    ED/OIG I13E0022


the system and while according to State there was some initial resistance, mainly among
subject matter experts who did not want to let go of the knowledge they possessed, the
tool is now being widely used. According to their estimate, the cost of implementing the
new system was about $30,000.

Conclusion:

The Department administers an annual budget over $63 billion through different
programs, grants and loans. In order to effectively manage this budget and deliver the
highest quality of service, knowledge sharing will be instrumental in maintaining and
exceeding its current level of service. Finding ways to better share information across the
Department and within individual components, at a minimal cost, will become
increasingly important as the number of people served by the Department continues to
grow and the number of employees leaving through retirement continues to grow.

The Department has developed the ConnectED site which shares administrative
information and the “What Works Clearinghouse” that shares information about good
educational practices, two of the objectives identified by the MIT. The Department has
not developed an inventory of employee skills or as part of its human capital plan,
articulated a knowledge management strategy or offered the principal offices specific
knowledge management tools to help support their workforce or succession planning
efforts. Individual offices have implemented or developed some specific tools that might
be useful in this regard. In addition, we were able to identify some relatively inexpensive
initiatives that have been implemented in other Department that could be adapted for use
in ED.

Methodology:

As part of our review, we interviewed Department employees recognized as participants
in, or organizers of, KM initiatives. We also interviewed contacts at three Federal
agencies—National Aeronautics and Space Administration (NASA), the U.S. Department
of Labor (Labor) and the U.S. Department of State (State)—as well as reviewed the
Department’s KM working group report from 2002.

Departmental Response

This report was issued in draft and submitted to the Department for comments on
November 27, 2004. No comments were received.

Administrative Matters

This inspection was performed in accordance with the President’s Council on Integrity
and Efficiency Quality Standards for Inspections (1993).

We appreciate the cooperation given to us during the inspection. If you have any
questions or wish to discuss the contents of this report, please call me at 202-245-7029 or
Deb Schweikert, Director, Evaluations and Inspections Division at 202-245-7026. Please


                                             7
OIG/Evaluations and Inspections        Inspection Report                     ED/OIG I13E0022


refer to the control number in all correspondence relating to this report.




                                              8
OIG/Evaluations and Inspections                                      Inspection Report                             ED/OIG I13E0022


Appendix A: Department KM Initiatives and Status
                            OVAE, Communities of Practice

                   OUS, Learning About Each Other W ebsite

                              OUS, APEC Knowledge Bank

                                   OUS, APEC W eb Portal

                                          OSERS, KM Plan

                                       OSDFS, E-Learning

                              OPE, Project Tracking System
 KM Initiatives




                                     OPE, Policy Database

                   OIG, Case/Document Management System

                  OCR, Case/Document Management System

                                      OCR, Issue Networks

                                  IES, NCES Members' Site

                                       IES, NCES W ebsite

                          IES, National Library of Education

                                          IES, Eric Program

                                                 IES, W W C

                                 FSA, Teamshare Software


                                                                     Conception                Planning             Implementation
                                                               0                                1                                    2
                                                                                     Stage of Development


Appendix B: Principal Office Intranet Sites
                                                                                                                         Corporate
      Principle                                         Deliver     Publish         Manage      Automate    Discussion
                                No Intranet                                                                               Yellow
       Office                                           Training   info/news       Documents   Work Flows      Area
                                                                                                                          Pages
                  CFO
                  CIO
                  FSA
                  IES
                  OCR
     ODS/OUS
              OELA
              OESE
                  OGC
                  OIG
                  OII
                  OIIA
              OLCA
                  OM
                  OPE
                  OS
           OSDFS
          OSERS
              OVAE




                                                                               9
